APPENDIX TABLE OF CONTENTS
Appendix A – Opinion (8th Cir.) (Feb. 1, 2021) ..........................................................1a
Appendix B – Order Regarding Pretrial Motion Status Hearing and Trial
Setting (E.D.Mo.) (Apr. 19, 2018) ..........................................................................9a
Appendix C – Amended Judgment (E.D.Mo.) (Aug. 1, 2019) ...................................11a
Appendix D – Order Denying Rehearing and Rehearing En Banc (8th Cir.)
(Mar. 22, 2021) .....................................................................................................21a

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-2042
___________________________
United States of America
lllllllllllllllllllllPlaintiff - Appellee
v.
Jerris M. Blanks
lllllllllllllllllllllDefendant - Appellant
____________
Appeal from United States District Court
for the Eastern District of Missouri - St. Louis
____________
Submitted: December 17, 2020
Filed: February 1, 2021
____________
Before SMITH, Chief Judge, WOLLMAN and LOKEN, Circuit Judges.
____________
WOLLMAN, Circuit Judge.
Jerris Blanks was convicted of three counts related to the receipt and
possession of child pornography in violation of 18 U.S.C. § 2252A(a)(2), (a)(5)(B),
(b)(1), and (b)(2) and was sentenced to 130 months’ imprisonment. Blanks argues

1a
Appellate Case: 19-2042

Page: 1

Date Filed: 02/01/2021 Entry ID: 4999654

that the district court1 abused its discretion in denying him leave to re-file pretrial
motions and in admitting certain evidence. We affirm.
I. Background
Law enforcement officers found more than 1,000 images of child pornography
and child erotica and fourteen videos of child pornography on Blanks’s devices and
online accounts. The internet search history on Blanks’s cellphone indicated that he
had also accessed online images of child pornography and child erotica. Upon being
charged, Blanks moved to dismiss the indictment. He also moved to suppress
evidence seized from his online accounts and obtained pursuant to a search warrant.
Blanks and the Government reached a pre-ruling non-binding plea agreement,
which required that Blanks withdraw all previously filed motions and waive his right
to file any further pretrial motions. During a hearing before a magistrate judge,2
Blanks confirmed that he wished to withdraw his motions and waive his right to file
further motions. After rejecting the plea agreement, the district court, as set forth
above, denied Blanks’s motion to re-file pretrial motions.
Blanks stipulated at trial that the seized images contained child pornography
and moved that the images not be shown to the jury because they were not probative
and were also unfairly prejudicial. The government responded that it intended to
show the jury only forty-two images. The court denied Blanks’s motion to exclude
the evidence, concluding that this percentage of images was less than that normally

The Honorable E. Richard Webber, United States District Judge for the
Eastern District of Missouri.
1

The Honorable Nannette A. Baker, United States Magistrate Judge for the
Eastern District of Missouri.
2

-22a
Appellate Case: 19-2042

Page: 2

Date Filed: 02/01/2021 Entry ID: 4999654

shown in child pornography trials. Forty-two images were shown to the jury, but no
videos were presented.
II. Discussion
We review for abuse of discretion the district court’s denial of leave to file
untimely pretrial motions, as well as its evidentiary rulings. United States v.
Trancheff, 633 F.3d 696, 697–98 (8th Cir. 2011).
A. Pretrial Motions
Blanks first argues that the district court abused its discretion when it denied
him leave to re-file his pretrial motions after rejecting his plea agreement. It is
undisputed that the deadline for pretrial motions had already passed when Blanks
withdrew his pretrial motions and waived his right to file further motions.
Federal Rule of Criminal Procedure 12(c)(1) permits the court to “set a
deadline for the parties to make pretrial motions.” The court may extend or reset
filing deadlines, but will not consider an untimely motion unless the party shows
good cause for the delay. Id. 12(c)(2), (c)(3). Good cause “requires a showing of
cause and prejudice.” United States v. Fry, 792 F.3d 884, 888 (8th Cir. 2015).
We conclude that the district court did not abuse its discretion in denying
Blanks’s motion for leave to file post-deadline pretrial motions in light of his
knowing and voluntary waiver of his right to do so. See United States v. Bloate, 534
F.3d 893, 901 (8th Cir. 2008) (concluding that a party cannot show good cause exists
when he knowingly and voluntarily waived his right to file), rev’d in part on other
grounds, 559 U.S. 196 (2010). The magistrate judge expressly asked Blanks at the
motions hearing, “And do you understand that if I accept your withdrawal of motions
and waiver of motions that you will not have another opportunity to bring up pretrial
-33a
Appellate Case: 19-2042

Page: 3

Date Filed: 02/01/2021 Entry ID: 4999654

motions in this case?” See id. at 900 (describing the magistrate judge as having
“expressly explained the nature and consequences of a waiver in detail”). Blanks
responded, “I wasn’t quite sure about that because . . . if the next judge was to for
some reason deny our [plea] agreement, then where would that put us?” The
following dialogue ensued:
THE COURT: Well, if you waive your right to have pretrial motions and
I accept your waiver of pretrial motions, your case will be going before
a district judge for a change of plea or a trial. That would be the next
step in the proceedings. . . .
[THE GOVERNMENT]: I just want to make sure the record is clear is
[sic] that we had negotiations—our negotiations are a non-binding plea
agreement, and so the judge is free to either accept the recommendation
or reject it.
THE COURT: Okay. So that’s the situation. So if you are going
forward to the district judge, . . . I’m not involved in that part of the
case. What I would be involved in is whether or not you wish to file
pretrial motions or have an evidentiary hearing on those motions. But
if I’m accepting your withdrawal of motions and waiver of motions then
you would not be able to come back before this court and bring up
pretrial motions again. Do you understand that?
[BLANKS]: Yes.
THE COURT: Is that something that you wish to do?
***
[BLANKS]: Yes.
The record is unambiguous. The magistrate judge warned Blanks that the
district court might reject the plea agreement and that, in those circumstances, Blanks
would not be permitted to re-file his pretrial motions. See id. at 901 (“[The
-44a
Appellate Case: 19-2042

Page: 4

Date Filed: 02/01/2021 Entry ID: 4999654

defendant’s] waiver was knowing and voluntary, due to the magistrate judge’s
explanation of the right and its consequences.”). Blanks acknowledged that he
understood that risk and decided to withdraw his motions and waive his right to refile. On this record, it is clear that Blanks “voluntarily and knowingly agreed to
withdraw his pretrial motions with prejudice, and the court made it clear that [he]
would not be able to raise the motions again if he did proceed to trial.” See United
States v. Garrido, 995 F.2d 808, 815 (8th Cir. 1993).
We reject Blanks’s argument that “good cause exists whenever the defendant’s
failure to file the motion on time or [his] withdrawal of the timely-filed motion was
due to some circumstance beyond his control and the Government would not be
prejudiced.” Blanks accepted the plea agreement rejection as a known risk at the time
he executed the waiver. Any argument that his counsel ineffectively advised him
regarding the risks of withdrawing his pretrial motions and waiving his right to file
further pretrial motions is more properly raised in a habeas petition. See United
States v. Pherigo, 327 F.3d 690, 696 (8th Cir. 2003) (“[C]laims of ineffective
assistance of counsel are best evaluated on facts developed outside of the record on
direct appeal and are properly raised in a post-conviction motion under
28 U.S.C. § 2255 and not on direct appeal.”). Further, “[t]he possibility that other
parties and the court could accommodate a late-filed motion does not mandate that
the court grant an exception to the deadline where the movant fails to make an
adequate showing of good cause.” United States v. Trobee, 551 F.3d 835, 838 (8th
Cir. 2009). The fact that the district court’s rejection of the plea agreement was
beyond Blanks’s control does not alone create good cause in light of his acceptance
of that risk at the time of the waiver.3
The out-of-circuit cases that Blanks cites likewise lend him no aid. See, e.g.,
United States v. Mohammed, 501 F. App’x 431, 437–38 (6th Cir. 2012) (dismissal
of untimely pretrial motion was abuse of discretion when a superseding indictment
added a new charge after the motions deadline and therefore failure to raise timely
motion was “based on its legal irrelevance to the pending charges”); United States v.
3

-55a
Appellate Case: 19-2042

Page: 5

Date Filed: 02/01/2021 Entry ID: 4999654

B. Admission of Child Pornography Images
Blanks next argues that the district court abused its discretion in admitting
child pornography images at trial despite his willingness to stipulate that they
contained child pornography. He argues (1) that the district court failed to view the
images before deciding to admit them and (2) that the images were unfairly
prejudicial and needlessly cumulative. He argues further that the government should
have been permitted to show only six images—one from each location at which child
pornography was discovered—rather than the forty-two ultimately shown to the jury.
Relevant evidence may be excluded “if its probative value is substantially
outweighed by a danger of . . . unfair prejudice, confusing the issues, misleading the
jury, undue delay, wasting time, or needlessly presenting cumulative evidence.” Fed.
R. Evid. 403. “Unfairly prejudicial evidence is so inflammatory on its face as to
divert the jury’s attention from the material issues in the trial,” United States v.
Fechner, 952 F.3d 954, 958 (8th Cir. 2020) (internal citation omitted), and thereby
“tends to suggest decision on an improper basis,” United States v. Pruneda, 518 F.3d
597, 605 (8th Cir. 2008) (quoting United States v. Myers, 503 F.3d 676, 682 (8th Cir.
2007)).
Although it might well have been a better practice to examine the images in
question, the district court did not abuse its discretion by making its Rule 403
decision without having done so. The government indicated that it would show only
a small representative sample of the images, which would be drawn from each of the
devices and accounts on which child pornography was discovered. See United States
v. Worthey, 716 F.3d 1107, 1114 (8th Cir. 2013) (child pornography video clips

Salahuddin, 509 F.3d 858, 860–63 (7th Cir. 2007) (district court clearly erred when
it denied review of a pretrial motion that was untimely filed as a result of the parties’
mutual mistake of law regarding the applicability of a prior offense).
-66a
Appellate Case: 19-2042

Page: 6

Date Filed: 02/01/2021 Entry ID: 4999654

properly admitted when government “had chosen clips as a representative
sample . . . without including the worst of the videos” (internal quotation marks
omitted)). The court explained that “ordinarily all the images are—all the videos are
shown” and expressed its surprise that the government intended to show such a small
percentage of the images, describing this decision as “a substantial withdrawal of
what would ordinarily be shown.” Thus, even without viewing the images, the court
did not abuse its discretion in deciding that Blanks would not be unfairly prejudiced
by the jury’s viewing a small percentage of the images. See id. (“Given the parties’
stated positions, we presume that the district court weighed this evidence pursuant to
Rule 403 and concluded that the government should be permitted to play the video
clips.” (internal quotation marks, brackets, and citation omitted)).
We likewise disagree with Blanks’s contention that the images were unfairly
prejudicial and needlessly cumulative. The images helped the government prove that
Blanks had knowingly received and possessed child pornography on a variety of
different devices and mediums, including his computer and cellphone, a CD, and the
internet. Although Blanks “conceded and stipulated” that the pictures were child
pornography, “[s]tipulation to an element of the offense . . . does not generally
constitute an evidentiary alternative having equal or greater probative value.” United
States v. Sewell, 457 F.3d 841, 844 (8th Cir. 2006). Rather, “‘the prosecution is
entitled to prove its case by evidence of its own choice,’ and ‘a criminal defendant
may not stipulate or admit his way out of the full evidentiary force of the case as the
Government chooses to present it.’” Id. (quoting Old Chief v. United States, 519 U.S.
172, 186–87 (1997)).
Indeed, the government and court took steps to limit the images’ prejudicial
effect. Counsel warned prospective jurors during voir dire about the nature of the
images. The government struck for cause prospective jurors who expressed concern
about being able to view the images objectively, as well as many prospective jurors
who worked with children, who knew victims of sexual assault, or who were
-77a
Appellate Case: 19-2042

Page: 7

Date Filed: 02/01/2021 Entry ID: 4999654

themselves victims. The government did not seek to admit any of the videos and
introduced only forty-two of the more than 1,000 images received or possessed by
Blanks. See generally United States v. Becht, 267 F.3d 767, 774 (8th Cir. 2001)
(concluding that thirty-nine still photos of child pornography had limited prejudicial
effect when counsel warned prospective jurors, the “court excused for cause three
jurors who stated they would not be able to view such images without prejudicing the
defendant,” and the thirty-nine images were only a fraction of the hundreds of images
that had been discovered).
Conclusion
The judgment is affirmed.
______________________________

-88a
Appellate Case: 19-2042

Page: 8

Date Filed: 02/01/2021 Entry ID: 4999654

Case: 4:16-cr-00271-ERW Doc. #: 129 Filed: 04/19/18 Page: 1 of 2 PageID #: 462

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
JERRIS M. BLANKS,
Defendant.

)
)
)
)
)
)
)
)
)

No. 4:16-CR-271-ERW

ORDER REGARDING PRETRIAL MOTION STATUS HEARING
AND TRIAL SETTING
The above matter is referred to the undersigned pursuant to 28 U.S.C. § 636(b).
Defendant was arraigned on July 11, 2016, and requested additional time to file pretrial motions.
The undersigned found that, in the interest of justice, the request should be granted and extended
the deadline for filing motions to August 11, 2016. Upon Defendant’s motion, the undersigned
granted additional extensions, in the interest of justice, until August 22, 2017. Defendant filed
pretrial motions on May 1, 2017 and additional pretrial motions on August 22, 2017. The
motions being briefed, the undersigned set the matter for a hearing. On April 18, 2018, this
matter came before the undersigned for an evidentiary hearing. At the hearing, Defendant orally
moved to withdraw his previously-filed pretrial motions and stated his intention to not file any
additional pretrial motions. Defendant appeared with counsel and acknowledged on the record
his understanding of his right to file pretrial motions; his understanding that the time for filing
pretrial motions has passed; and his agreement with the decision of counsel to withdraw the
previously filed pretrial motions. The Assistant United States Attorney appeared on behalf of the
United States and acknowledged on the record that there are no outstanding pretrial matters on
behalf of the United States. Based on the record made in open court at the time of the pretrial

9a

Case: 4:16-cr-00271-ERW Doc. #: 129 Filed: 04/19/18 Page: 2 of 2 PageID #: 463

motion status hearing, there are no outstanding pretrial matters pending in this case. As such, no
report and recommendation will be forthcoming.
Accordingly,
Defendant’s oral motion to withdraw the previously filed pretrial motions [Doc. #58,
Doc. #59, Doc. #88, Doc. #89, Doc. #90] is GRANTED.
Finally, the trial of this matter will be set at a later date by the Honorable E. Richard
Webber, United States District Judge. Defendant may request a plea hearing with Judge Webber
prior to the forthcoming trial date.

NANNETTE A. BAKER
UNITED STATES MAGISTRATE JUDGE
Dated this 19th day of April, 2018.

10a

Case: 4:16-cr-00271-ERW
Doc. #: 269 Filed: 08/01/19 Page: 1 of 10 PageID #: 1691
Sheet I- Amended Judgment m a Criminal Case

AO 245C (Rev 09/17)

United States District Court
Eastern District of Missouri

UNITED STATES OF AMERICA
V

AMENDED JUDGMENT IN A CRIMINAL CASE

CASE NUMBER: Sl-4:16CR271 ERW

JERRIS M. BLANKS

USM Number: 45953-044
Jeffrey Goldfarb

Date of Original Judgment: _M_a_,_y_l_5.'-2_0_19_ _ _ _ _ _ _ __
(Or date of last Amended Judgment)

Defendant's Attorney

Reason for Amendment:

D Modification of Supervision Conditions (18 U.S C §§ 3563(c) or 3583(e))
D Modification of Imposed Term of Imprisonment for Extraordinary and
Compelling Reasons (18 U.S.C. §§ 3582(c)(1))
D Modification of Imposed Term of Imprisonment for Retroactive Amendment(s)
to the Sentencing Guidelines (18 U.S.C § 3582(c)(2))
D Direct Motion to District Court Pursuant to D 28 U.S.C. § 2255 or

D Correction of Sentence on Remand (18 U.S.C. 3742(f)(1) and (2))
D Reduction of Sentence for Changed Circumstances (Fed. R. Crim. P. 35(b))
D Correction of Sentence by Sentencing Court (Fed. R. Crim. P. 35(a))
D Correction of Sentence for Clerical Mistake (Fed. R. Crim. P 36)

•

THE DEFENDANT:

D
D

---------------

18 U.S.C. § 3559(c)(7)

Modification of Restitution Order (18 U.S.C. § 3664)

pleaded guilty to count(s)
pleaded nolo contendere to count(s)
which was accepted by the court.
----------------------------------

was found guilty on <,:ount(s) one, two and three of the superseding indictment on January 16, 2019.
after a plea of not guilty
The defendant is adjudicated guilty of these offenses:
Date Offense

Title & Section
18 U.S.C.
and
18 U.S.C.
18 U.S.C.
and
18 U.S.C.
18 U.S.C.
and
18 U.S.C.

Concluded

Nature of Offense

Receipt of Child Pornography

b/n January I, 2011
and August 18, 2011

§ 2252A(a)(5)(8)

Possession of Child Pornography

§ 2252A(b)(2)
§ 2252A(a)(5)(8)

b/n January I, 2011
and August 18, 20 I I

Possession of Child Pornography

b/n May I, 2015
and June 26, 2015

§ 2252A(a)(2)
§ 2252A(b)(I)

§ 2252A(b)(2)

The defendant is sentenced as provided in pages 2 through
to the Sentencing Reform Act of 1984.

D
D

9

Count
Number(s)
Is

2s
3s

of this judgment. The sentence is imposed pursuant

The defendant has been found not guilty on count(s) _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __
dismissed on the motion of the United States.

Count(s) _ _ _ _ _ _ _ _ _ _ _ _ _ __

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence, or
mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay
restitution, the defendant must notify the court and United States attorney of material changes in economic circumstances.
August I, 2019 (Original Judgment Date May 15, 2019)
Date of Imposition of Judgment

c.~Jr~
Signature of Judge

E, Richard Webber
Senior United States District Judge
Name & Title of Judge

11a
Record No.:

.. · ~l_;J..019
Date signed

Amended Judgment in a Criminal
Sheet
2 - #:
Imprisonment
Case: 4:16-cr-00271-ERW
Doc.
269 Filed: 08/01/19 Page: 2 of 10 PageID #: 1692

AO 245C (Rev. 09/17)

ase

Judgment-Page _2_

of

_9__

DEFENDANT: JERRIS M. BLANKS
CASE NUMBER: Sl-4:16CR271 ERW
District:

Eastern District of Missouri

IMPRISONMENT

The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of 130 months.
This term consists of a term of 130 months on each of counts one, two, and three, all such terms to be served concurrently.

The court makes the following recommendations to the Bureau of Prisons:
While in the custody of the Bureau of Prisons, it is recommended the defendant be evaluated for participation in a mental health treatment
program, and the Sex Offender Management Program. It is also recommended the defendant be evaluated for participation in an
Occupational/Educational program, specifically, in heating, ventilation, air conditioning and electrical. It is further recommended that the
defendant participate in the Bureau of Prisons Financial Responsibility Program while incarcerated. Such recommendations are made to
the extent they are consistent with the Bureau of Prisons policies.
The defendant is remanded to the custody of the United States Marshal.

D

D

The defendant shall surrender to the United States Marshal for this district:

D
D

at

_ _ _ _ _ _ a.m./pm on

as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D
D
D

before 2 p.m. on
as notified by the United States Marshal
as notified by the Probation or Pretrial Services Office

MARSHALS RETURN MADE ON SEPARATE PAGE

12a

AO 245C (Rev. 09/17)

Judgment in a Criminal
Sheet
3 - Supervised
Release Filed: 08/01/19 Page: 3 of 10 PageID #: 1693
Case: Amended
4:16-cr-00271-ERW
Doc.
#: 269

Judgment-Page

_3_ of _9__

DEFENDANT: JERRIS M. BLANKS
CASE NUMBER: Sl-4:16CR271 ERW
District:

Eastern District of Missouri

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 15 years.

-~------

This term consists of a term of 15 years on each of counts one, two, and three, all such terms to run concurrently.

MANDATORY CONDITIONS
I.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.

D

4.

D

The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a
sentence of restitution. (check if applicable)

5.

You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

6.

You must comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 20901,
et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in
the location where you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check ifapplicable)

7.

O

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached page.

13a

AO 245C (Rev. 09/17)

Amended Judgment in a Criminal
Sheet 3A - Supervised
Release Filed: 08/01/19 Page: 4 of 10 PageID #: 1694
Case: 4:16-cr-00271-ERW
Doc.
#: 269

Judgment-Page __
4_ of _9__

DEFENDANT: _ _ _ _ _ _ _ _ _ _ _ _ _ __
CASE NUMBER:
District:

--------------

Eastern District of Missouri

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
I.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your release
from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time frame.

2.

After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.

3.

You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.

4.

You must answer truthfully the questions asked by your probation officer.

5.

You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying the
probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to take
any items prohibited by the conditions of your supervision that he or she observes in plain view.

6.
7.

You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from doing
so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses you from
doing so. If you plan to change where you work or anything about your work (such as your position or your job responsibilities), you must
notify the probation officer at least IO days before the change. If notifying the probation officer at least IO days in advance is not possible
due to unanticipated circumstances, you must notify the probation officer within 72 hours of becoming aware of a change or expected
change.

8.

You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been convicted
of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the probation officer.

9.

If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.

I 0. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without first
getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may require you
to notify the person about the risk and you must comply with that instruction. The probation officer may contact the person and confirm
that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this judgment
containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised Release Conditions,
available at: www.uscourts.gov.

Date

Defendant's Signature

14a

Case: 4:16-cr-00271-ERW
Doc.
269ReleaseFiled: 08/01/19 Page: 5 of 10 PageID #: 1695
Amended Judb'ITlent in a Criminal
Sheet 3B -#:
Supervised

AO 245C (Rev 09/17)

Judgment-Page _

5_

of

_9__

DEFENDANT: JERRIS M. BLANKS
CASE NUMBER: SI-4:16CR271 ERW
District:

Eastern District of Missouri

ADDITIONAL SUPERVISED RELEASE TERMS
While on supervision, the defendant shall comply with the standard conditions that have been adopted by this Court and shall comply with
the following additional conditions. If it is determined there are costs associated with any services provided, the defendant shall pay those
costs based on a co-payment fee established by the probation office.
I. You must submit to substance abuse testing to determine if you have used a prohibited substance. You must not attempt to obstruct or
tamper with the testing methods.
2. You must participate in a substance abuse treatment program and follow the rules and regulations of that program. The probation
officer will supervise your participation in the progam (provider, location, modality, duration, intensity, etc.)
3. You must participate in a mental health treatment program and follow the rules and regulations of that program. The probation officer,
in consultation with the treatment provider, will supervise your participation in the program (provider, location, modality, duration,
intensity, etc.).
4. You must submit your person, property, house, residence, vehicle, papers, computers (as defined in 18 U.S.C. § I 030(e)(I)), other
electronic communications or data storage devices or media, or office, to a search conducted by a United States probation officer. You
must warn any other occupants that the premises may be subject to searches pursuant to this condition. The probation officer may conduct
a search under this condition only when reasonable suspicion exists that you have violated a condition of supervision and that the areas to
be searched contain evidence of this violation.
5. You must not possess and/or use computers (as defined in 18 U.S.C. § I 030(e)(I )) or other electronic communications or data storage
devices or media without approval of the probation office.
6. You must advise the probation office of all computer, electronic equipment, and web enabled equipment, including cell phones, to
which you possess or have access to within 24 hours of obtaining same.
7. You must not access the Internet except for reasons approved in advance by the probation officer.
8. You must allow the probation officer to install computer monitoring software on any computer (as defined in 18 U.S.C. § 1030(e)(I))
you use.
9. To ensure compliance with the computer monitoring condition, you must allow the probation officer to conduct initial and periodic
unannounced searches of any computers (as defined in 18 U .S.C. § 1030(e )(1 )) subject to computer monitoring. These searches shall be
conducted for the purposes of determining whether the computer contains any prohibited data prior to installation of the monitoring
software; to determine whether the monitoring software is functioning effectively after its installation; and to determine whether there have
been attempts to circumvent the monitoring software after its installation. You must warn any other people who use these computers that
the computers may be subject to searches pursuant to this condition.
10. You must not view or possess any "visual depiction" (as defined in 18 U.S.C. § 2256), including any photograph, film, video, picture,
or computer or computer-generated image or picture, whether made or produced by electronic, mechanical, or other means, of "sexually
explicit conduct" (as defined in 18 U.S.C. § 2256).

15a

Amended Judgment in a Criminal
Sheet#:
3B -269
SupervisedFiled:
Release 08/01/19 Page: 6 of 10 PageID #: 1696
Case: 4:16-cr-00271-ERW
Doc.

AO 245C (Rev. 09/17)

Judgment-Page

6

Of

9

DEFENDANT: JERRIS M. BLANKS
CASE NUMBER: Sl-4:16CR271 ERW
District:

Eastern District of Missouri

ADDITIONAL STANDARD CONDITIONS OF SUPERVISION
11. You must not have direct contact with any child you know or reasonably should know to be under the age of 18, without the
permission of the probation officer. If you do have any direct contact with any child you know or reasonably should know to be under the
age of 18, without the permission of the probation officer, you must report this contact to the probation officer within 24 hours. Direct
contact includes written communication, in-person communication, or physical contact. Direct contact does not include incidental contact
during ordinary daily activities in public places.
12. You are prohibited from engaging in any occupation, business, profession, or volunteer work where you have access to children under
the age of 18 without prior written approval from the probation office. You must not go to, or remain at, any place where you know
children under the age of 18 are likely to be, including parks, schools, playgrounds, and childcare facilities. You must not go to, or remain
at, a place for the primary purpose of observing or contacting children under the age of 18.
13. You must participate in a sex offense-specific treatment program and follow the rules and regulations of that program. The probation
officer will supervise your participation in the program (provider, location, modality, duration, intensity, etc.).
14. You must submit to periodic polygraph testing at the discretion of the probation officer as a means to ensure that you are in compliance
with the requirements of your supervision or treatment program.
15. You must pay the financial penalty in accordance with the Schedule of Payments sheet of this judgment. You must also notify the
court of any changes in economic circumstances that might affect the ability to pay this financial penalty.
16. You must provide the probation officer with access to any requested financial information and authorize the release of any financial
information. The probation office may share financial information with the U.S. Attorney's Office.
17. You must not incur new credit charges, or open additional lines of credit without the approval of the probation officer.
18. You must apply all monies received from any anticipated and/or unexpected financial gains, including any income tax refunds,
inheritances, or judgments, to the outstanding Court-ordered financial obligation. You must immediately notify the probation office of the
receipt of any indicated monies.

16a

Judgment in a Criminal
Case:Amended
4:16-cr-00271-ERW
Doc.
#: 269
Sheet
5 - Criminal
Monetary Filed:
Penalties 08/01/19 Page: 7 of 10 PageID #: 1697

AO 245C (Rev. 09/17)

Judgment-Page

7

of

_9__

DEFENDANT: JERRIS M. BLANKS
CASE NUMBER: Sl-4:16CR271 ERW
District: Eastern District of Missouri

CRIMINAL MONETARY PENALTIES

The defendant must pay the total criminal monetary penalties under the schedule of payments on sheet 6
Assessment
JVTA Assessment*
Fine
Totals:

$5,000.00

$300.00

"71 The determination of restitution is deferred until
will be entered after such a determination.

D

Restitution

within 70 days

An Amended Judgment in a Criminal Case (AO 245C)

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

If the defendant makes a partial payment, each payee shall receive an approximately proportional payment unless specified
otherwise in the priority order or percentage payment column below. However, pursuant ot 18 U.S.C. 3664(i), all nonfederal
victims must be paid before the United States is paid.
Total Loss*

Name of Payee

Restitution Ordered Priority or Percentage
$5,000.00

Deborah A. Bianco in trust for "Henley"
14535 Bellevue-Redmond Road, Suite 201,
Bellevue, WA 98807

$5,000.00

D Restitution amount ordered pursuant to plea agreement

D The
defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full
before the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 36 l 2(t). All of the payment options on
Sheet 6 may be subject to penalties for delinquency and default, pursuant to 18 U .S.C. § 36 I 2(g).

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

D

The interest requirement is waived for the.
The interest requirement for the

D

fine

D

D

fine

restitution.

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.

17a
** Findings for the total amount of losses are required under Chapters
I 09A, 110, 11 0A, and 113A of Title 18 for offenses committed on or
after September 13, I 994 but before April 23, 1996.

Sheet
5A - #:
Criminal
Penalties
Amended Judgment in a Criminal
Case: 4:16-cr-00271-ERW
Doc.
269Monetary
Filed:
08/01/19 Page: 8 of 10 PageID #: 1698

AO 245C (Rev. 09/17)

Judgment-Page

8

of

9

DEFENDANT: JERRIS M. BLANKS
CASE NUMBER: Sl-4:16CR271 ERW
District:

Eastern District of Missouri

ADDITIONAL TERMS FOR CRIMINAL MONETARY PENAL TIES
IT IS FURTHER ORDERED that pursuant to 18 U.S.C. § 3663A, the defendant shall make restitution in the total amount of$5,000 to:
Deborah A. Bianco in trust for "Henley"
14535 Bellevue-Redmond Road
Suite 201
Bellevue, WA 98807
Payments of restitution shall be made to the Clerk of the Court for transfer to the victims. The interest requirement for the restitution is
waived.
All criminal monetary penalties are due in full immediately. The defendant shall pay all criminal monetary penalties through the Clerk of
Court. If the defendant cannot pay in full immediately, then the defendant shall make payments under the following minimum payment
schedule: During incarceration, it is recommended that the defendant pay criminal monetary penalties through an installment plan in
accordance with the Bureau of Prisons' Inmate Financial Responsibility Program at the rate of 50% of the funds available to the defendant.
If the defendant owes any criminal monetary penalties when released rom incarceration, then the defendant shall make payments in
monthly installments of at least $100, or no less than I 0% of the defendant's gross earnings, whichever is greater, with pyments to
commence no later than 30 days after release from imprisonment. Until all criminal monetary penalties are paid in full, the defendant shall
notify the Court and this dstrict's United States Attorney's Office, Financial Litigation Unit, of any material changes in the defendant's
economic circumstances that might affect the defendant's ability to pay criminal monetary penalties. The defendant shall notify this
district's United States Attorney's Office, Financial Litigation Unit, of any change of mailing or residence address that occurs while any
portion of the criminal monetary penalties remains unpaid.

18a

AO 245C (Rev. 09/17)

Judgment in a Criminal
Sheet
6 - Schedule
Case:Amended
4:16-cr-00271-ERW
Doc.
#: 269of Payments
Filed: 08/01/19 Page: 9 of 10 PageID #: 1699
Judgment-Page

9

of

_9__

DEFENDANT: JERRIS M. BLANKS
CASE NUMBER: S 1-4: l 6CR27 l ERW
District:

Eastern District of Missouri

SCHEDULE OF PAYMENTS

Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties shall be due as follows:
Lump sum payment of

A

D

due immediately, balance due

$5,300.00
not later than

_________

in accordance with

D
CD
B

D

C,

D

Payment to begin immediately (may be combined with
Payment in equal

D, or

D

, or

D
C,

E below; or

D

D, or

F below; or

D

E below; or

D

F below; or

_ _ _ _ (e.g., equal, weekly, monthly, quarterly) installments of _ _ _ _ _ _ _ over a period of

_______ e.g., months or years), to commence _ _ _ _ _ _ _ (e.g., 30 or 60 days) after the date of this judgment; or

D Payment in equal

D

_ _ _ (e.g., equal, weekly, monthly, quarterly) installments of _ _ _ _ _ _ over a period of
e.g., months or years), to commence _ _ _ _ _ _ _ (e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or

E

D

F

Payment during the term of supervised release will commence within _ _ _
(e.g., 30 or 60 days) after Release from
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time: or
Special instructions regarding the payment of criminal monetary penalties:

IT IS FURTHER ORDERED that the defendant shall pay to the United States a special assessment of $100 on each of counts one, two, and three, for a total of $300, which shall he
due immediately. See pages 7 and 8 regarding restitution.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during the period of imprisonment. All criminal monetary penalty payments, except those payments made through the Bureau of Prisons'
Inmate Financial Responsibility Program are made to the clerk of the court.
The defendant will receive credit for all payments previously made toward any criminal monetary penalties imposed.

•
•
•
D

Joint and Several
Defendant and Co-defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

The defendant shall pay the cost of prosecution.

The defendant shall pay the following court cost(s ):

The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall be applied in the following order: (1 ) assessment; (2) restitution principal, (3) restitution interest, (4) fine principal,
(5)fine interest (6) community restitution.(7) penalties, and (8) costs, including cost of prosecution and court costs.

19a

Case: 4:16-cr-00271-ERW Doc. #: 269 Filed: 08/01/19 Page: 10 of 10 PageID #: 1700
DEFENDANT: JERRIS M. BLANKS
CASE NUMBER: Sl-4:16CR271 ERW
USM Number: 45953-044

-----------

UN IT ED ST ATES MARSHAL
RETURN OF JUDGMENT IN A CRIMINAL CASE
I have executed this judgment as follows:

The Defendant was delivered on _ _ _ _ _ _ _ to _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __
a t - - - - - - - - - - - - - - - - - - , with a certified copy of this judgment.

UNITED ST ATES MARSHAL

By

•
•
•

Deputy U.S. Marshal

The Defendant was released on _ _ _ _ _ _ _ to_ _ _ _ _ _ _ _ Probation
The Defendant was released on _ _ _ _ _ _ _ to _ _ _ _ _ _ _ _ Supervised Release
and a Fine of_ _ _ _ _ _ __

D

and Restitution in the amount of _ _ _ _ _ _ __

UNITED STATES MARSHAL

By

I

Deputy U.S. Marshal

certify and Return that on _ _ _ _ _ _ , I took custody of _ _ _ _ _ _ _ _ _ _ _ _ __

at

-----------

and delivered same to _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

on _ _ _ _ _ _ _ _ _ _ _ _ _ _ F.F.T. _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __
U.S. MARSHAL E/MO

20aByDUSM _ _ _ _ _ _ __

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2042
United States of America
Appellee
v.
Jerris M. Blanks
Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:16-cr-00271-ERW-1)
______________________________________________________________________________
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Gruender did not participate in the consideration or decision of this matter.
March 22, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

21a
Appellate Case: 19-2042

Page: 1

Date Filed: 03/22/2021 Entry ID: 5016814

